MORRISON MAHONEY LLP
COUNSELLORS AT LAW

ONE CONSTITUTION PLAZA, 10TH FLOOR
HARTFORD, CT 06103-1810
860-616-4441
Brian E. Tetreault
Phone: 860-616-7640

btetreault@morrisonmahoney.com

MASSACHUSETTS
BOSTON
FALL RIVER
SPRINGFIELD
WORCESTER
CONNECTICUT
HARTFORD
STAMFORD
ENGLAND
LONDON

NEW HAMPSHIRE
MANCHESTER
NEW JERSEY
PARSIPPANY
NEW YORK
NEW YORK
RHODE ISLAND
PROVIDENCE

October 31, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
RE:

John Metcalf v. Michael Fitzgerald, et al.
S.Ct. No. 19-490

Dear Mr. Harris:
The petition for a writ of certiorari was filed in this matter on October 15, 2019 and
docketed on that same date. The Respondents, Myles H. Alderman and Alderman & Alderman,
LLC's response is currently due on November 14, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to,
and including Monday, December 16, 2019 within which to file our response.
This extension is requested as counsel has numerous commitments to other clients and will
need to consult with other counsel familiar with Supreme Court procedure and substantive law as
it relates to petitions for writ of certiorari and grounds for objection to ensure that Respondents'
positions are presented in the best possible light.
Very truly yours
/
Brian E. Tetreault
cc: See attached service list.

1479134v. 1

19-490
Jonathan S. Metcalf
Michael Fitzgerald, et al
Adam G. Unikowsky
Jenner & Block, LLP
1099 New York Avenue, Nw
Suite 900
Washington, D.C. 20001
Phone: 202-639-6000
Aunikowsky@Jenner.Com
Bruce L. Elstein
Goldman, Gruder & Woods, LLC
105 Technology Drive
Trumbull, CT 06611
Joseph Musco
The Law Offices of Musco & Iassogna
555 Long Wharf Dr., 10th Floor
New Haven, CT 06511

1479134v.1

